Case: 20-2176

Document: 18-2

Filed: 09/07/2021

Page: 1

NOT RECOMMENDED FOR PUBLICATION
No. 20-2176
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
SASHA TRIESTE MCGARITY,

)
)
)

Plaintiff-Appellant,
v.
BIRMINGHAM PUBLIC SCHOOLS, dba West
Maple Elementary - Bloomfield Hills,
Defendant-Appellee.

)
)
)
)

ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF
MICHIGAN

)
)
)

ORDER
Before: SUTTON, Chief Judge; SILER and ROGERS, Circuit Judges.
Sasha McGarity, a pro se Michigan resident, appeals from the district court’s grant of
summary judgment in her employment-discrimination action filed under Title VII of the Civil
Rights Act of 1964,42 U.S.C. § 2000e, et seq. This case has been referred to a panel of the court
that, upon examination, unanimously agrees that oral argument is not needed. See Fed. R. App.
P. 34(a).

I
A
In August 2018, Birmingham Public Schools (BPS) hired McGarity to serve as a special
education paraprofessional at West Maple Elementary School. McGarity was to be classified as a
probationary employee for the first ninety days of her employment, from August 28 to January 22,

Case: 20-2176

Document: 18-2

Filed: 09/07/2021

Page: 2

No. 20-2176
-22019. During this probationary period, BPS had the “unconditional right to terminate” McGarity’s
employment without going through the grievance process included in the Paraprofessional
Collective Bargaining Agreement. The Birmingham Association of Paraprofessionals is the union
for the school district’s paraprofessionals.
McGarity’s job as a special education paraprofessional involved assisting students with
special educational needs and their teachers so that the students received an education in the least
restrictive environment and in accordance with their respective individualized education plans
(IEP). Where possible, the special education students sometimes took classes in general education
(GE) classrooms with other students. In those situations, paraprofessionals like McGarity worked
with the students they were assigned to on a one-on-one basis. Special education students could
also take classes in the learning resource center (LRC), a classroom specifically dedicated to
serving them and staffed with its own teachers. Although paraprofessionals work with both GE
and LRC teachers, the LRC teachers coordinate the work of the paraprofessionals by setting their
schedules, assigning them their students, and providing special instructions based on each
student’s IEP requirements and current needs. Communication with teachers and students is an
important part of a paraprofessional’s job.
For the 2018-19 school year, the LRC teachers at West Maple were Claire Theys and Grace
Weiss. McGarity was one of four paraprofessionals under their supervision. Except for McGarity,
the other paraprofessionals had worked at West Maple for at least ten years. One of these veteran
paraprofessionals was Julie Shimshock. Jason Pesamoska was West Maple’s interim principal
that school year. Theys, Weiss, Pesamoska, and the three other paraprofessionals, including
Shimshock, are white, while McGarity is African American.
Although McGarity’s tenure at West Maple began with initial promise, problems soon
emerged between McGarity and her West Maple colleagues.

According to the complaint,

McGarity started to take issue in November with how Weiss and Theys interacted with certain
students. The LRC teachers, in turn, allegedly started scrutinizing McGarity more closely than the
three other paraprofessionals. In December, McGarity was scheduled to have a meeting with

Case: 20-2176

Document: 18-2

Filed: 09/07/2021

Page: 3

No. 20-2176
-3Weiss and Theys. McGarity informed Weiss that she would be late to that meeting, prompting
Weiss and Theys to inform Pesamoska. The next day, Pesamoska met with McGarity and asked
her to reschedule the meeting with the LRC teachers. McGarity met with Weiss and Theys the
next week. That meeting proved contentious, with Weiss allegedly telling McGarity “that she
should put in her 2 weeks[’] notice and leave.” The day after this contentious meeting, Pesamoska
informed McGarity that she was under investigation and that she had two options, either transfer
to another school or “stay and work things out with the teachers.” McGarity eventually informed
Pesamoska of her desire to stay at West Maple, but she also asked for a union representative at an
upcoming meeting with Pesamoska. By then, McGarity also learned about a physical altercation
involving Shimshock and a student that suggested to McGarity that “she was being treated
differently from the Caucasian paraprofessionals.”
On January 10, 2019, McGarity attended a meeting with Pesamoska; Grat Dalton, a union
representative; Dean Niforos, a BPS human-resources official; and Laura Mahler, the school
district’s Interim Executive Director of Special Education. Pesamoska gave a negative assessment
of McGarity’s job performance, which McGarity disputed. Dalton informed McGarity that she
would be dismissed, but he also said that Pesamoska would offer two weeks’ pay and not oppose
unemployment assistance if McGarity resigned.

McGarity rejected the offer, and she was

dismissed from her position on January 11. Niforos informed McGarity by email the next day that
she was being dismissed for lack of communication with the LRC teachers and failure to meet job
performance standards.
The record provides other details about what happened between McGarity and her
colleagues at West Maple between August and January, some of which McGarity disputes. By
October, according to the depositions and statements of others, McGarity had preferred to take her
breaks and lunches by herself, either in a vacant classroom or in her car, which limited
opportunities for her colleagues, including the LRC and GE teachers, to talk to her and keep
everyone updated. McGarity also stopped visiting the LRC as a rift opened up between her and

Case: 20-2176

Document: 18-2

Filed: 09/07/2021

Page: 4

No. 20-2176
-4the LRC teachers. Weiss and Theys asserted that McGarity was not communicating with the
teachers who taught the students assigned to McGarity.
In November, Weiss and Theys raised concerns about McGarity’s job performance to
Pesamoska, primarily with respect to the loss of regular communication and McGarity’s tendency
to direct a particular student having trouble in GE classrooms to the LRC instead of trying to help
that student adjust to the least restrictive environment. At Pesamoska’s urging, Weiss and Theys
met with McGarity to provide more specific guidance, and McGarity was assigned a different
student in place of the student with whom Weiss and Theys took issue.
In his December meeting with McGarity, Pesamoska emphasized the importance of
maintaining communication with the LRC teachers and other colleagues. Pesamoska began a
separate investigation of McGarity’s job performance, independent of Weiss’s and Theys’s
involvement, by interviewing the other paraprofessionals, several GE teachers, and the school
secretary.

Notes from these interviews confirmed existing concerns about McGarity’s job

performance and her communicativeness with her colleagues.
In January, although McGarity wrote that she wanted to try working things out with the
LRC teachers, she deliberately decided not to speak with them because she “was still very angry”
with them.

Indeed, McGarity e-mailed Robyn O’Keefe, the president of the Birmingham

Association of Paraprofessionals, expressing her intention to file a grievance and requesting a
meeting “in order to get this resolved as soon as possible.” McGarity sent that e-mail shortly
before the meeting where McGarity was informed of her dismissal.

At some point after

McGarity’s dismissal, Amy Tomaselli, a white woman, took over as the new paraprofessional at
West Maple.

B
A magistrate judge construed McGarity’s complaint as raising claims of race
discrimination, retaliation, and a hostile work environment under Title VII, and a claim under the
Fair Labor Standards Act (FLSA), 29 U.S.C. § 206. McGarity served the complaint and summons

Case: 20-2176

Document: 18-2

Filed: 09/07/2021

Page: 5

No. 20-2176
-5on May 21,2019. BPS filed an answer with the court on June 12, one day later than the permitted
21-day period. See Fed. R. Civ. P. 12(a)(l)(A)(i). McGarity filed multiple requests for a clerk’s
entry of default, which were denied. McGarity then moved for default judgment, which was denied
by the district court, upon the recommendation of the magistrate judge and over McGarity’s
objection, on the basis that McGarity did not demonstrate how she was prejudiced by the one-day
delay. The case proceeded to discovery.
In May 2020, before the close of a rather contentious discovery period, McGarity filed a
motion for summary judgment. BPS filed its own motion for summary judgment in August.
McGarity filed a response in opposition, and BPS filed a reply. In parallel with these motions,
both parties filed motions for sanctions due to disputes over how discovery was conducted.
A magistrate judge filed a report recommending that BPS’s summary-judgment motion be
granted on all claims and that McGarity’s be denied. The magistrate judge denied the motions for
sanctions. McGarity then filed a motion for leave to amend her complaint, wanting to replace her
putative claim under the FLSA with one under the National Labor Relations Act (NLRA) and
adding the Birmingham Association of Paraprofessionals as an additional defendant to the
proposed claim. McGarity also filed an objection to the report and recommendation.
The district court overruled the objection, adopted the report and recommendation, granted
BPS’s summary-judgment motion, denied McGarity’s summary-judgment motion, and denied as
futile and untimely McGarity’s motion for leave to amend her complaint.

Concluding that

“plaintiffs objections are not sufficiently specific or substantive to constitute proper objections,”
the court declined to review them, but it did independently review the parties’ summary-judgment
motions. The district court found “that plaintiffs case is so lacking in factual or legal support as
to be frivolous and sanctionable,” but the court did not take further action since BPS did not object
to the magistrate judge’s order denying sanctions. McGarity filed a timely notice of appeal.

Case: 20-2176

Document: 18-2

Filed: 09/07/2021

Page: 6

No. 20-2176
-6II
A
McGarity raises six issues on appeal. First, she challenges the district court’s denials of
default judgment in her favor. McGarity also appeals the district court’s denial of the motion for
leave to amend her complaint. The four remaining issues relate to the grant of summary judgment
in favor of BPS. Each is addressed in the order addressed by the district court.
McGarity’s brief contains exhibits intended to bolster her arguments on appeal, but the
record on appeal, with very few exceptions, can only include “the original papers and exhibits filed
in the district court.” Fed. R. App. P. 10(a)(1); see United States v. Murdock, 398 F.3d 491, 500
(6th Cir. 2005). These exhibits cannot be taken into account at this late stage and have no bearing
on this discussion.

B
We review the denial of default judgment for an abuse of discretion. Shepard Claims Serv.,
Inc. v. William Darrah & Assoc., 796 F.2d 190, 193 (6th Cir. 1986). Default judgment is
appropriate if “a party against whom a judgment for affirmative relief is sought has failed to plead
or otherwise defend” in the proceedings of the underlying action. Fed. R. Civ. P. 55(a). The
movant must first obtain a clerk’s entry of default against the defaulting party before the court or
clerk may enter default judgment. Fed. R. Civ. P. 55(a)-(b). Because McGarity filed her first
request for an entry of default on July 1, well after BPS filed its answer with the court on June 12,
the clerk was under no obligation to enter a default against BPS. See Fed. R. Civ. P. 55(a).
McGarity consequently had no basis to pursue a default judgment. See Heard v. Caruso, 351 F.
App’x 1,15-16 (6th Cir. 2009). The district court therefore did not abuse its discretion in denying
the motion.

Case: 20-2176

Document: 18-2

Filed: 09/07/2021

Page: 7

No. 20-2176
-7C
1
We review the district court’s grant of summary judgment de novo. Ability Ctr. of Greater
Toledo v. City ofSandusky, 385 F.3d 901, 903 (6th Cir. 2004). Summary judgment is appropriate
if the movant can demonstrate that no genuine dispute of material fact exists and the movant is
entitled to judgment as a matter of law. Fed. R. Civ. P. 56(a). The movant bears the initial burden
of establishing an absence of evidence to support the nonmoving party’s case. Celotex Corp. v.
Catrett, 477 U.S. 317, 325 (1986). The district court must view the evidence in the light most
favorable to the nonmoving party, who must present sufficient evidence such that a rational jury
might find in its favor. Anderson v. Liberty Lobby, Inc., All U.S. 242, 255, 256-57 (1986); see
also Rorrer v. City ofStow, 743 F.3d 1025, 1038 (6th Cir. 2014).
McGarity argues that the district court erred in ruling on the summary-judgment motions
by (1) excluding from its Title VII analysis certain employees that McGarity had identified in order
to demonstrate disparate treatment; (2) failing to recognize that “declaration statements and
deposition responses [favorable to BPS] are not genuine but merely deception” that erroneously
justified the grant of summary judgment; (3) disposing of the retaliation claim for McGarity’s
failure to depose Mahler; and (4) assessing McGarity’s claim that she faced a hostile work
environment based on the frequency of hostile events or occurrences. McGarity’s objection to the
report and recommendation included numerous disagreements with the report’s factual
determinations, but it also included four arguments objecting to the report’s legal analysis. The
first two issues relate to the discrimination claim, while the third and fourth issues relate
respectively to the retaliation and hostile-work-environment claims. Because McGarity makes no
arguments with respect to her FLSA claim, we deem that claim forfeited. See Geboy v. Brigano,
489 F.3d 752, 767 (6th Cir. 2007).

Case: 20-2176

Document: 18-2

Filed: 09/07/2021

Page: 8

No. 20-2176
-82
In a case alleging employment discrimination based on circumstantial evidence, that is,
where there is no direct evidence of discrimination, the McDonnell Douglas burden-shifting
framework applies. See McDonnell Douglas Corp. v. Green, 411 U.S. 792 (1973). Under this
framework, the plaintiff must first establish a prima facie case of discrimination before the burden
shifts to the employer to rebut that prima facie case; if the employer can identify legitimate and
nondiscriminatory reasons for its actions, then the plaintiff must demonstrate that the reasons
offered by the employer were a pretext for discrimination. Id. at 802; Wheat v. Fifth Third Bank,
785 F.3d 230, 237 (6th Cir. 2015).
Here, the parties do not dispute that McGarity established a prima facie case of
discrimination because McGarity (1) is African American and therefore a member of a protected
class; (2) was qualified for the job, having been appointed to her position as paraprofessional; (3)
suffered an adverse employment decision, specifically dismissal from employment; and (4) was
replaced by a person outside the protected class or treated differently from similarly situated non­
protected employees, namely that Tomaselli took over McGarity’s place as West Maple’s fourth
paraprofessional and her white colleagues were not dismissed. See White v. Baxter Healthcare
Corp., 533 F.3d 381, 391 (6th Cir. 2008). But BPS stated a legitimate and nondiscriminatory
reason for dismissing McGarity, specifically that McGarity was inadequately communicating with
the LRC teachers and did not meet her job performance standards. See Cicero v. Borg-Warner
Auto., Inc., 280 F.3d 579, 588 (6th Cir. 2002) (recognizing failure to satisfy performance
expectations as a legitimate and nondiscriminatory reason for dismissal); Martin v. Toledo
Cardiology Consultants, Inc., 548 F.3d 405,413 (6th Cir. 2008) (recognizing a personality conflict
as a legitimate and nondiscriminatory reason for dismissal). McGarity thus had the burden to
demonstrate that a genuine dispute of material fact exists over pretext.
McGarity argues that, in analyzing whether her evidence of disparate treatment
demonstrated pretext, the district court improperly excluded from its analysis certain employees
she had presented, specifically Theys, Shimshock, and Tomaselli. Because the Supreme Court has

Case: 20-2176

Document: 18-2

Filed: 09/07/2021

Page: 9

No. 20-2176
-9rejected “‘the premise that a plaintiff must always introduce additional, independent evidence of
discrimination’ beyond that presented in his or her prima facie case in order to prove pretext,” the
evidence establishing McGarity’s prima facie case of disparate treatment can also establish pretext
if it shows that BPS’s stated reason for dismissing her (1) has no basis in fact, (2) did not actually
motivate the dismissal, or (3) was insufficient to warrant dismissal. Garrett v. Sw. Med. Clinic,
631 F. App’x 351, 356 (6th Cir. 2015) (quoting Reeves v. Sanderson Plumbing Prod., 530 U.S.
133, 149 (2000)); Hostettler v. Coll of Wooster, 895 F.3d 844, 858 (6th Cir. 2018). “Disparate
treatment occurs when an employer treats some employees less favorably than others because of
race, religion, sex, or the like.” Huguleyv. Gen. Motors Corp., 52 F.3d 1364,1370 (6th Cir. 1995).
McGarity proposed Theys because, according to McGarity, Theys was the daughter of Mahler,
Pesamoska wanted to impress Mahler in order to become principal on a permanent basis, and
Mahler improperly participated in the decision to dismiss McGarity. McGarity has a problem,
though, because Mahler had recommended her for the position at West Maple, so even if the
evidence could fully substantiate these allegations, McGarity does not offer an explanation as to
why Mahler would support her hiring, then on the basis of race support her dismissal. See Garrett,
631 F. App’x at 357. McGarity proposed Shimshock because Shimshock did not lose her position
as paraprofessional after an incident involving a physically agitated student during the 2017-18
school year, but Shimshock, who had been hired in 2007, was permanently established as
paraprofessional when the incident occurred, in contrast to McGarity’s probationary status, and
the issues surrounding a one-time physical confrontation contrast too sharply with an eventual
deterioration of relations to consider Shimshock in this disparate-treatment argument. McGarity
proposed Tomaselli because she eventually took over McGarity’s position as Maple West’s fourth
paraprofessional, but the only information McGarity offers about Tomaselli is that she is white.
The district court committed no error in not taking into account Theys, Shimshock, and Tomaselli
as comparators offered in support of McGarity’s pretext argument.
McGarity next argues that, in evaluating her pretext argument, the district court
inappropriately took into account “facts that were not genuine and contained a host of unexplained

Case: 20-2176

Document: 18-2

Filed: 09/07/2021

Page: 10

No. 20-2176
- 10inconsistencies.” Inconsistencies are inevitable when the record takes into account numerous
documents and witness statements, but McGarity does not identify any blatant contradictions, only
factual determinations made by the district court that she disagrees with.

3
A Title VII claim of retaliation arises if an employer takes adverse action against the
plaintiff for either opposing an unlawful employment practice or participating in an investigation,
proceeding, or hearing related to an unlawful employment practice. See 42 U.S.C. § 2000e-3(a).
The McDonnell Douglas framework also governs retaliation claims.

EEOC v. New Breed

Logistics, 783 F.3d 1057,1066 (6th Cir. 2015). To establish a prima facie case, the plaintiff must
demonstrate that (1) she engaged in an activity protected by Title VII, (2) the employer knew of
the plaintiffs protected activity, (3) the employer subsequently took adverse action against her,
and (4) a causal connection links the protected activity and the adverse action. Taylor v. Geithner,
703 F.3d 328, 336 (6th Cir. 2013).
In order to establish the causal connection, the plaintiff must demonstrate that her
engagement in a “protected activity was a but-for cause of the alleged adverse action by the
employer.” Univ. of Tex. Sw. Med. Ctr. v. Nassar, 570 U.S. 338,362 (2013); New Breed Logistics,
783 F.3d at 1066. Assigning but-for causation to the retaliation depends on whether the employer
would have taken the same adverse action in the absence of the protected conduct. See Gross v.
FBL Fin. Servs., 557 U.S. 167, 176 (2009). An intervening event that provides the employer a
“‘legitimate reason’ to take an adverse employment action” between the protected activity and the
adverse action breaks the connection necessary for but-for causation. Kuhn v. Washtenaw County,
709 F.3d 612, 628 (6th Cir. 2013) (citation and quotation marks omitted).
McGarity argues that the district court improperly declined to identify a genuine dispute of
material fact because she did not depose Mahler. Deposing Mahler was a contentious issue during
discovery that led to motions for sanctions by both parties, but McGarity ultimately decided not to
depose her despite being given that option. The district court identified two possible theories for

Case: 20-2176

Document: 18-2

Filed: 09/07/2021

Page: 11

No. 20-2176
-li­
the retaliation claim, one involving retaliation by Pesamoska in response to McGarity’s request for
union representation at their eventual January meeting—by uninviting Weiss and Theys from the
meeting and inviting instead Niforos and Mahler “with the sole intent of terminating McGarity’s
employment”—and the other involving retaliation by Mahler by “participating in a complaint
process involving her daughter [Theys] ... that could result in an EEOC charge.” In light of
McGarity’s later motion for leave to amend her complaint and how the proffered amended
complaint modified the retaliation claim, McGarity’s own theory of her claim asserts the former,
that she suffered retaliation for invoking her putative right under the NLRA to have union
representation.

In either case, McGarity’s failure to depose Mahler truncated the necessary

“inquiry into the motives of an employer” to develop the issue of causation. See Dixon v. Gonzales,
481 F.3d 324, 335 (6th Cir. 2007) (quoting Porter v. Cal. Dep’t of Corr., 419 F.3d 885, 895 (9th
Cir. 2005)).
In any event, the district court denied the retaliation claim primarily by identifying an
intervening event that broke the causal connection. Specifically, Pesamoska had told McGarity
that she must maintain communication with the LRC teachers in order to continue as a
paraprofessional. After McGarity had requested the presence of a union representative in her
upcoming meeting with Pesamoska and other school officials, Pesamoska learned that McGarity
had not talked at all with the LRC teachers in the weeks after he had stressed with her the
importance of maintaining communication; that lack of communication persuaded Pesamoska to
move toward dismissing McGarity from her position. Because McGarity does not raise any
arguments toward identifying a genuine dispute of material fact over this intervening event, the
district court’s conclusion must be affirmed.

4
A Title VII hostile-work-environment claim can arise if the plaintiff cannot work in an
environment free from discriminatory intimidation, ridicule, and insult. Meritor Sav. Bank, FSB
v. Vinson, All U.S. 57, 65 (1986). In order to establish a prima facie case, the plaintiff must

Case: 20-2176

Document: 18-2

Filed: 09/07/2021

Page: 12

No. 20-2176
-12demonstrate that (1) she was a member of a protected class, (2) she was subjected to unwelcome
harassment, (3) the harassment was based on her protected status, (4) the harassment was
sufficiently severe or pervasive to alter the conditions of employment and create an abusive
working environment, and (5) the employer knew or should have known about the harassment and
failedtoact. Waldov. Consumers Energy Co., 726 F.3d 802, 813 (6th Cir. 2013). The allegations
of harassment must be “sufficiently severe or pervasive” to persuade a court, after looking at “all
the circumstances,” that the incidents of harassment, when taken together, “make out such a case”
of a hostile work environment Id. at 814 (quoting Harris v. Forklift Sys., Inc., 510 U.S. 17, 23
(1993); Williams v. Gen. Motors Corp., 187 F.3d 553, 562 (6th Cir. 1999)); see also Russell v.
Univ. of Toledo, 537 F.3d 596, 608 (6th Cir. 2008) (noting that the harassment must be based on
the plaintiffs protected status).
The district court construed the allegations surrounding the December meeting between
Theys, Weiss, and McGarity, which involved Weiss allegedly telling McGarity to resign from her
position, to be a claim that McGarity endured a hostile work environment. McGarity seems to
take issue with assessing the claim based on the frequency of discriminatory or adverse
occurrences, but that approach was advocated only by BPS and not considered by the district court
in adopting the magistrate judge’s report and recommendation. In any case, McGarity now
concedes that Weiss’s words “are not unlawful under [T]itle VII,” but she argues that they are
unlawful under “the common tort law.” Unfortunately for McGarity, she did not assert such a
state-law claim below, and we will not consider it in the first instance on appeal. See Frazier v.
Jenkins, 770 F.3d 485,497 (6th Cir. 2014).

D
We review the denial of a motion for leave to amend the complaint for an abuse of
discretion, unless the denial is based on the legal conclusion that the proposed amendment would
be futile, in which case we review the denial de novo. United States v. Gibson, 424 F. App’x 461,
464-65 (6th Cir. 2011); Evans v. Pearson Enters., Inc., 434 F.3d 839, 853 (6th Cir. 2006). Leave

Case: 20-2176

Document: 18-2

Filed: 09/07/2021

Page: 13

No. 20-2176
-13to amend the complaint should be freely given when justice so requires. Fed. R. Civ. P. 15(a)(2).
Nevertheless, discretion to deny leave is appropriate due to “undue delay, bad faith[,] or dilatory
motive on the part of the movant, repeated failure to cure deficiencies by amendments previously
allowed, undue prejudice to the opposing party by virtue of allowance of the amendment, futility
of amendment,” and other appropriate reasons. Foman v. Davis, 371 U.S. 178, 182 (1962).
McGarity filed her complaint on May 6, 2019. More than a year and a half had elapsed
when she filed her motion for leave to amend her complaint on November 16, 2020. Through that
period, McGarity and BPS engaged in a contentious discovery process, filed cross-motions for
summary judgment, and received the magistrate judge’s report and recommendation that would
adjudicate all of the claims in the original complaint. McGarity would need very compelling
reasons to justify her motion.
The amended complaint proposed a claim under the NLRA against BPS, adding
Birmingham Association of Paraprofessionals as a co-defendant for that claim. Careful parsing of
the original complaint and the amended complaint, as well as McGarity’s filings at the summaryjudgment stage, makes clear that the putative NLRA claim against BPS is merely the Title VII
retaliation claim for which the district court granted summary judgment. The amendments clarify
McGarity’s assertion that she suffered retaliation for seeking union representation, a putative right
she identifies under the NLRA. Thus, the amended complaint, to the extent that it modifies the
Title VII retaliation claim against BPS, would introduce a futile amendment.
As to the claim against the Birmingham Association of Paraprofessionals, the amended
complaint only adds that the union representative Dalton “did not perform his due diligence in
representing McGarity.” The union would not have “fair notice of what the plaintiff s claim is and
the grounds upon which it rests.” Conley v. Gibson, 355 U.S. 41, 47 (1957), abrogated by Bell
Atl. Corp. v. Twombly, 550 U.S. 544 (2007). Moreover, the union and BPS would also suffer
undue prejudice by the protracted delay. If McGarity wanted to pursue a claim against the
Birmingham Association of Paraprofessionals, she had ample time to add the union as a co-

Case: 20-2176

Document: 18-2

Filed: 09/07/2021

Page: 14

No. 20-2176
-14defendant; she chose not to until it was too late. To the extent the district court exercised its
discretion with respect to the motion, the court did not abuse its discretion.

HI
For the foregoing reasons, we AFFIRM the judgment of the district court.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

Case 2:19-cv-11316-BAF-DRG ECF No. 73, PagelD.1138 Filed 11/03/20 Page 1 of 24

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
SASHA McGARITY,
Plaintiff,

Civil Action No. 19-11316
Honorable Bernard A. Friedman
Magistrate Judge David R. Grand

v.
BIRMINGHAM PUBLIC SCHOOLS,
Defendant.
REPORT AND RECOMMENDATION TO DENY PLAINTIFF’S MOTION FOR
SUMMARY JUDGMENT (ECF No. 37) AND GRANT DEFENDANT’S
MOTION FOR SUMMARY JUDGMENT (ECF No. 55)
This is an employment discrimination action brought by plaintiff Sasha McGarity
(“McGarity”) against her former employer Birmingham Public Schools (“BPS”). McGarity was
a paraprofessional at BPS, and was terminated during her initial 90-day probationary period. In
her complaint, McGarity asserts claims of race discrimination and retaliation in violation of Title
VII, 42 U.S.C. § 2000e, et seq., and a claim under the Fair Labor Standards Act (“FLSA”), 29
U.S.C.A. § 206. (Id. at PageID.15.) l
On May 18, 2020, McGarity filed a motion for summary judgment. (ECF No. 37.) With
the Court’s permission, BPS responded after the close of discovery, a few months later. (ECF.
Nos. 38, 65.) On August 3, 2020, BPS filed a motion for summary judgment. (ECF No. 55.)
McGarity responded, BPS replied, and McGarity filed a supplemental brief. (ECF Nos. 60, 63,
64.)

l

This case was referred to the undersigned for all pretrial matters under 28 U.S.C. § 636(b). (ECF
No. 29.)

Appendix B

Case 2:19-cv-11316-BAF-DRG ECF No. 73, PagelD.1139 Filed 11/03/20 Page 2 of 24

For the reasons set forth below, it is RECOMMENDED that McGarity’s motion for
summary judgment (ECF Nos. 37) be DENIED and BPS’s motion for summary judgment
GRANTED (ECF No. 55).
I.

REPORT
A. Facts
On August 28, 2018, BPS hired McGarity as a special education paraprofessional at West

Maple Elementary. (ECF No. 1, at PageID.12.) BPS classified her as a “probationary employee”
for 90 days following her hire—from August 28, 2018 through January 22, 2019. (ECF 37-2,
PageID.179.) As a probationary employee, BPS had the “unconditional right to terminate”
McGarity at-will without triggering the grievance procedure in the Paraprofessional Collective
Bargaining Agreement. (ECF No. 55-6, PageID.556.) According to McGarity, her job was to
“[a]ssist the teacher [and] assist the special needs student.” (ECF No. 55-4, PageID.529.)
McGarity also acknowledges that special education students are to be educated in the least
restrictive environment (LRE). (ECF No. 60-2, Id. at PageID.849.) Attached to her response to
BPS’s motion for summary judgment is a description of LRE.
[EJvery attempt will be made to first serve disabled students in the context
of a regular education classroom. Other more restrictive environments such
as resource rooms, self-contained classrooms, or settings outside of a
District school will be considered only after consideration has been given
by the IEPC [Individualized Education Plan Committee] as to the feasibility
of placement in the regular classroom.
(Id.)
McGarity spent most of her work day rotating between the general education classrooms,
where she worked one-on-one with her assigned students. (Id. at PageID.836.) The special
education students at West Maple at the time had a wide range of disabilities including learning
disabilities, cognitive impairments, emotional impairments, behavioral issues, and Down’s

2

Case 2:19-cv-11316-BAF-DRG ECF No. 73, PagelD.1140 Filed 11/03/20 Page 3 of 24

Syndrome. (ECF No. 55-4, PageID.530-533.) The special education teachers in the Learning
Resource Classroom (“LRC”) would assign McGarity her schedule and students. (ECF No. 55-4,
PageID.529.) Communication between McGarity and the LRC teachers was a necessary part of
McGarity’s position. {Id. at PageID.545.) The LRC teachers at West Maple during the 2018/2019
school year were Claire Theys and Grace Weiss. {Id. at PageID.529.)
McGarity took her breaks and lunches in a vacant classroom by herself, or alone in her car.
(ECF No. 55-4, PageID.536; ECF No. 60, PageID.801.) McGarity admits that “conflict arose
between [she] and the LRC teachers” (ECF No. 60, PageID.801), and she then stopped visiting the
LRC room altogether (ECF No. 55-8, PageID.561; No. 55-18, PageID.591). Both Weiss and
Theys averred in their declarations that McGarity did not communicate with the teachers in the
manner that was expected or necessary to best serve the students. {Id.) The following averments
from Weiss’ declaration exemplify their similar concerns:
7. The paras—except Sasha—would keep contact with us throughout the
school day as well. We would informally meet in the hallways, we would see
them during breaks, or at lunch. During these interactions, we were always
communicating about the students. These conversations are very important
for serving our students.
***

11. I began noticing issues with Sasha in October 2018.
12. Before that, Sasha did come to the LRC room before class began but
would occasionally throughout the day. She was quiet and would rarely
interact with anyone from our team. Sometime in October, she stopped
coming to the LRC room altogether. I had no idea where she was for a while.
I came to find out she would spend her time in the morning, during breaks,
and at lunch, in a vacant classroom by herself. No one knew what was going
on with her, and she would not share information with us about the students
she was working with.
13. As October progressed, Sasha would not talk to me when I did see her. I
asked simple things, like if a specific student completed assignments.
Initially, Sasha gave short, terse responses, with no information.

3

Case 2:19-cv-11316-BAF-DRG ECF No. 73, PagelD.1141 Filed 11/03/20 Page 4 of 24

14. By November 2018, Sasha would not respond to me at all when I would
be in the same classroom as her. At this point, Sasha was still not coming to
the LRC room. When I would run into her in the hall, I would try talking
with her. She would not respond to anything I said, so I had no idea if she
understood what I was trying to communicate about the students.
(ECF No. 55-18, PageID.591.)
McGarity’s own testimony might not confirm Weiss’ most concerning averments, but it
does corroborate that McGarity made the conscious decision to be independent rather than
communicating with the LRC teachers :
Q. Did there become a time when you preferred contacting one [Weiss or
Theys] over the other?
A. There came a time when I didn't want to contact either. I wanted to be
able to stand on my own.... I wanted to be able to do it on my own.
(ECF No. 55-4, PageID.534.)
Further, although McGarity explained that, from her perspective, she did not believe she
had a “communication issue” with Weiss and/or Theys, she agreed that they might have had such
an issue with her because “[everything is open to interpretation . .. So, a lack of communication
could be myselfjust being, trying to be independent and servicing the students on my own without
guidance.” (Id., PageDD.539.) When asked, “How often would you communicate back with the
teachers about the progress of the students?,” McGarity simply answered, “I do not recall.” (Id.,
PageID.535.) And, when questioned about her relationship with Weiss, McGarity responded, “My
goal is to do my job and go home. My goal is not to make friends at work.” (Id., PageID.536.)
Regardless of McGarity’s belief about the appropriateness of her communication style, it
is undisputed that in November, in the middle of her probationary period, Weiss and Theys began
raising their concerns about McGarity’s communication with the Principal of West Maple, Jason
Pesamoska. (ECF No. 55-8, PageID.562; ECF No. 55-18, PageID.592.) These concerns centered
around her lack of in-person communication, and her tendency to use the LRC classroom

4

Case 2:19-cv-11316-BAF-DRG ECF No. 73, PagelD.1142 Filed 11/03/20 Page 5 of 24

immediately when a student showed difficulties in the general education classroom, instead of
attempting to work with the student in the LRE first. (Id.) At Principal Pesamoska ’s instruction,
the LRC teachers tried meeting with McGarity to address these issues. (ECF Nos. 55-8, 55-18.)
During these meetings, the LRC teachers reviewed expectations and offered guidance. (Id). In
late November 2018, the LRC teachers changed McGarity’s schedule and assigned her a different
student. (Id.)
In early December 2018, the LRC teachers scheduled another meeting with McGarity to
once again address their growing concerns and to give her another new schedule. (ECF Nos. 558,55-18.) McGarity did not attend the scheduled meeting. (ECF No. 55-4, PageID.539.) The
LRC teachers then reported their concerns again to Principal Pesamoska. (ECF Nos. 55-8, 55-18.)
On December 13, 2018, Principal Pesamoska met with McGarity regarding the LRC
teachers’ complaints.

(ECF No. 55-13, PageID.577.)

Pesamoska directed McGarity to

communicate with the LRC teachers daily regarding her students. (Id.) Five days after this
meeting, Pesamoska e-mailed McGarity to see if she “had an opportunity to touch base with Grace
[Weiss] and Claire [Theys]... to make sure that those lines of communication have been opened.”
(ECF No. 55-14, PageID.580.) McGarity responded that they “were supposed to meet but it didn’t
happen.” (Id.) Principal Pesamoska instructed McGarity “to touch base with them before the end
of the day tomorrow,” meaning Wednesday, December 19, 2018. (Id.)
McGarity finally met with the LRC teachers. (ECFNos. 55-8, 55-18.) During the meeting,
the teachers raised concerns with communication and sending student K.E. to the LRC too
frequently, instead of working with him in the class. (ECF No. 55-4, PageID.540.) At that time,
Pesamoska decided to investigate these complaints on his own. (ECF No. 55-11.) He interviewed
two other special education paraprofessionals, four general education teachers, and the school

5

Case 2:19-cv-11316-BAF-DRG ECF No. 73, PagelD.1143 Filed 11/03/20 Page 6 of 24

secretary. (Id.) All seven witnesses confirmed the LRC teachers’ observations about McGarity’s
communication issues and difficulties with certain students.

(Id.)

For example, notes of

Pesamoska’s interviews report the interviewees as saying things like, “[McGarity] has not spoken
more than two words to me,” “stand-offish not willing to build relationships with adults,” “refusal
to engage with the team at all . . . didn’t know if she understood [Weiss] and [Theys] were
supervisors and if she did didn’t act like it,” “always off to self, not welcoming,” and “not receptive
to suggestions from classroom teacher and would shut teacher down and talk back to her.” (Id.)
On December 21, 2018, Principal Pesamoska met with McGarity again regarding these
issues and explained she needed to communicate with the LRC teachers.
PageID.541; No. 55-15, PageID.582; No. 62, PageID.910-11.)

(ECF Nos. 55-4,

Principal Pesamoska gave

McGarity a choice between either transferring to a new building, or meeting with union
representation to work things out with the LRC teachers. (Id.) On January 1,2019, McGarity sent
Principal Pesamoska a text message stating that she wanted to work things out with the LRC
teachers. (ECF 37-2, PageID.181.)
Upon returning to school on January 2, 2019, however, McGarity consciously decided not
to communicate at all with the LRC teachers:
Q. And what happened when you returned to school?
A. We were supposed to gather a meeting to, you know, discuss my issues
with Grace and Claire. And did I talk to them? No. I did my job and I went
home. ... I did my job and went home. Did I talk to them? No. I did not
want to talk to them. I was still very angry.
(ECF No. 55-4, PageID.541-42.)
On January 4, 2019, at 9:03 a.m., McGarity e-mailed Robyn O’Keefe, the President of the
Birmingham Association of Paraprofessionals, stating:
I do not feel comfortable meeting with the group alone. I have just decided
to file a grievance to express some unfair treatment. I will submit the
6

Case 2:19-cv-11316-BAF-DRG ECF No. 73, PagelD.1144 Filed 11/03/20 Page 7 of 24

complaint by 8pm tonight. I would like to meet on Monday or Tuesday
morning in order to get this resolved as soon as possible. If the process
takes time that’s fine with me. I will just need to let the principle [sic] know.
I appreciate your assistance on this matter.
(ECF No. 37-2, PageID.182.)
On January 8, 2019, Principal Pesamoska e-mailed McGarity and scheduled a meeting for
January 10, 2019. (ECF No. 55-16, PageID.584.) He stated: “Dean Niforos, Human Resources,
along with Laura Mahler, Special Education will be in attendance. I have also included Robyn
O’Keefe on this e-mail, so she is aware and also knows if you wish to have union representation.”
(Id.) During the January 10th meeting, Pesamoska terminated McGarity’s employment due to
BPS’s “concerns with [her] lack of communication with the LRC teachers . . .” (ECF No. 61,
PageID.888; No. 37-2, PageID.183; No. 62, PageID.910-11.)
On May 6, 2019, McGarity filed suit against BPS alleging race discrimination and
retaliation under Title VII and the FLSA. (ECF No. 1.) On May 18,2020, well before discovery
closed, McGarity filed a motion for summary judgment. (ECF No. 37.) The Court allowed BPS
to respond to that motion after the close of discovery, and the motion has been fully briefed. (ECF
Nos. 39, 44, 60, 65.) BPS filed its own motion for summary judgment on August 3, 2020. (ECF
No. 55.) McGarity responded, BPS replied, and McGarity filed a supplemental brief that BPS has
moved to strike. (ECF Nos. 55, 60, 63, 64, 66.)2

2 Also before the Court are the parties’ competing motions for sanctions (ECF Nos. 53, 69), which
the Court will mainly address in a separate Order. Most all of the issues raised by these motions
concern the parties’ alleged improper litigation behavior and do not directly bear on the merits of
this case. The only issue of any substance is McGarity’s contention that BPS failed to allow her
to take the deposition of Laura Mahler, who (1) held an administrator position in BPS’s Special
Education Department and attended the meeting at which McGarity was terminated, (2) is
allegedly Theys’s mother, and (3) allegedly was one of the decision-makers in McGarity’s
termination. (ECF Nos. 53, 44.) Attached to its own sanctions motion, BPS provided copies of
recent e-mails that its counsel sent to McGarity offering her an opportunity to depose Mahler.
(ECF No. 69-10.) At oral argument on the pending motions, the undersigned explained to
7

Case 2:19-cv-11316-BAF-DRG ECF No. 73, PagelD.1145 Filed 11/03/20 Page 8 of 24

B.

The Applicable Legal Standards

Pursuant to Rule 56, the Court will grant summary judgment if “the movant shows that
there is no genuine dispute as to any material fact and the movant is entitled to judgment as a
matter of law.” Fed. R. Civ. P. 56(a); see also Pittman v. Cuyahoga County Dep’t of Children &
Family Servs., 640 F.3d 716, 723 (6th Cir. 2011). A fact is material if it might affect the outcome
of the case under governing law. See Anderson v. Liberty Lobby, Inc., All U.S. 242, 248 (1986).
In determining whether a genuine issue of material fact exists, the Court assumes the truth of the
non-moving party’s evidence and construes all reasonable inferences from that evidence in the
light most favorable to the non-moving party. See CiminiUo v. Stretcher, 434 F.3d 461, 464 (6th
Cir. 2006).
The party seeking summary judgment bears the initial burden of informing the court of the
basis for its motion, and must identify particular portions of the record that demonstrate the absence
of a genuine dispute as to any material fact. See Celotex Corp. v. Catrett, All U.S. 317, 325
(1986); Alexander v. CareSource, 576 F.3d 551, 558 (6th Cir. 2009). “Once the moving party
satisfies its burden, ‘the burden shifts to the nonmoving party to set forth specific facts showing a
triable issue.’” Wrench LLC v. Taco Bell Corp., 256 F.3d 446, 453 (6th Cir. 2001) (quoting
Matsushita Elec. Indus. Co. v. Zenith Radio Corp., 475 U.S. 574, 587 (1986)). In response to a
summary judgment motion, the opposing party may not rest on its pleadings, nor “‘rely on the
hope that the trier of fact will disbelieve the movant’s denial of a disputed fact’ but must make an

McGarity that the present record did not seem to favor her position as to some of the central issues
before the Court - including whether BPS’s proffered reason for her termination was pretext - and
that her allegations about Mahler’s involvement, which related to that issue, were unsupported by
evidence. Accordingly, the undersigned offered McGarity the opportunity to take Mahler’s
deposition and supplement the briefing. McGarity expressly declined the Court’s invitation and
indicated that she wished to have the pending summary judgment motions decided on the current
evidentiary record.
8

Case 2:19-cv-11316-BAF-DRG ECF No. 73, PagelD.1146 Filed 11/03/20 Page 9 of 24

affirmative showing with proper evidence in order to defeat the motion.” Alexander, 576 F.3d at
558 (quoting Street v. J.C. Bradford & Co., 886 F.2d 1472,1479 (6th Cir. 1989)). Indeed, “‘[t]he
failure to present any evidence to counter a well-supported motion for summary judgment alone
is grounds for granting the motion.’” Id. (quoting Everson v. Leis, 556 F.3d 484, 496 (6th Cir.
2009)). “Conclusory statements unadorned with supporting facts are insufficient to establish a
factual dispute that will defeat summary judgment.” Id. at 560 (citing Lewis v. Philip Morris, Inc.,
355 F.3d 515, 533 (6th Cir. 2004)).
A moving party with the burden of proof (typically the plaintiff) faces a “substantially
higher hurdle.” Arnett v. Myers, 281 F.3d 552,561 (6th Cir. 2002). As set forth above, the moving
party without the burden of proof needs only show that the opponent cannot sustain his burden at
trial. “But where the moving party has the burden - the plaintiff on a claim for relief or the
defendant on an affirmative defense - his showing must be sufficient for the court to hold that no
reasonable trier of fact could find other than for the moving party.” Calderone v. U.S., 799 F.2d
254, 259 (6th Cir. 1986) (internal citations omitted). Accordingly, summary judgment in favor of
the plaintiff “is inappropriate when the evidence is susceptible of different interpretations or
inferences by the trier of fact.” Harris v. Kowalski, 2006 WL 1313863, at *3 (W.D. Mich. May
12, 2006) (quoting Hunt v. Cromartie, 526 U.S. 541, 553 (1999)).
C.

Analysis
1.

BPS is Entitled to Summary Judgment on McGarity's Race Discrimination
Claim
a. McGarity Establishes a Prima Facie Case

McGarity claims her termination is a result of race discrimination. McGarity does not have
direct evidence of race discrimination, so she must use the familiar burden-shifting framework set
forth in McDonnell Douglas Corporation v. Green, 411 U.S. 792 (1973). Under this framework,
9

Case 2:19-cv-11316-BAF-DRG ECF No. 73, PagelD.1147 Filed 11/03/20 Page 10 of 24

McGarity must establish a prima facie case of discrimination by showing that: (1) she “was a
member of a protected class;” (2) she “suffered an adverse employment action;” (3) she “was
qualified for the position;” and (4) she “was replaced by someone outside the protected class or
was treated differently than similarly-situated, non-protected employees.”

Wright v. Murray

Guard, Inc., 455 F.3d 702, 707 (6th Cir. 2006). If McGarity can establish these elements, then the
burden shifts to BPS to articulate a legitimate, nondiscriminatory reason for her termination. Id.
If BPS does so, then, to survive summary judgment, McGarity must identify evidence from which
a reasonable jury could conclude that the proffered reason is actually a pretext for race
discrimination. Id.
In her motion for summary judgment, McGarity simply states that she has proven herprima
facie case. (ECF No. 37, PageID.159.) At least in its own summary judgment motion, BPS does
not seem to dispute this, as its first substantive argument is that “[McGarity’s] Termination was
Based on Legitimate Non-Discriminatory Reasons.” (ECF No. 55, PageID.496.) At any rate, the
Court notes that McGarity, as an African-American is member of a protected class, and that she
was terminated, which means she suffered an adverse action.

Her qualifications for the

paraprofessional job do not seem to be in dispute, and in his deposition, Principal Pesamoska
confirmed McGarity’s contention that BPS replaced her with a Caucasian female. (ECF Nos. 60,
PageID.818; No. 61, PageID.894; No. 60-2, PageID.868.)

Therefore, the Court finds that

McGarity has established a prima facie case.
b. BPS Articulates a Non-Discriminatory Reason for Terminating
McGarity’s Employment
Having established a prima facie case, the burden shifts to BPS to “articulate some
legitimate, nondiscriminatory reason” for McGarity’s termination.

Fumco Constr. Corp. v.

Waters, 438 U.S. 567 (1978). Failure to meet performance expectations is a legitimate, non10

Case 2:19-cv-11316-BAF-DRG ECF No. 73, PagelD.1148 Filed 11/03/20 Page 11 of 24

discriminatory reason for termination. Cicero v. Borg-Wamer Auto, 280 F.3d 579, 588 (6th Cir.
2002). Even a personality conflict is a legitimate nondiscriminatory reason for termination.
Martin v. Toledo Cardiology, 548 F.3d 405, 413 (6th Cir. 2008). Here, BPS asserts that it
terminated McGarity due to the ongoing inadequate communication with LRC teachers and her
failure to meet job performance standards, as described above. (ECF No. 55, PageID.496-97.)
This sufficiently articulates a legitimate non-discriminatory reason for terminating McGarity.
Consequently, the burden shifted to McGarity to prove that BPS’s reason is pretext for unlawful
discrimination. Manzerv. Diamond Shamr. Chem., 29F.3d 1078, 1084 (6th Cir. 1994).
c. McGarity Fails to Raise a Material Question of Fact that BPS’s
Proffered Reason for Her Termination is Pretext
McGarity may establish pretext by showing “either (1) that the proffered reasons had no
basis in fact, (2) that the proffered reasons did not actually motivate [her] discharge, or (3) that
they were insufficient to motivate discharge.” Id. The Sixth Circuit has held that an employer’s
business judgment should not be questioned as a means of establishing pretext because the issue
is not whether the decision was wrong or mistaken but whether the decision was discriminatory.
Hartsel v. Keys, 87 F.3d 795, 801 (6th Cir. 1996), cert, denied, 519 U.S. 1055 (1997). Courts
should instead defer to sound business judgment to avoid “the illegitimate role of acting as a ‘super
personnel department,’ overseeing and second guessing employers' business decisions.” Bender
v. Hecht's Dep’t Stores, 455 F.3d 612,628 (6th Cir. 2006). BPS argues that McGarity cannot prove
pretext under any of the three types of showings listed above. (ECF No. 55, PageID.497-504.)
The Court agrees.
First, as shown above, BPS’s reasons proffered for termination are based in fact. McGarity
admits that communication was a necessary part of her job.

(ECF No. 55-4, PageID.545.)

McGarity cannot dispute that the LRC teachers had issues with the manner and frequency in which
11

Case 2:19-cv-11316-BAF-DRG ECF No. 73, PagelD.1149 Filed 11/03/20 Page 12 of 24

she communicated with them, and that those concerns were conveyed to Pesamoska, leading to his
investigation.

(ECF Nos. 55-8; 55-18.)

Nor does McGarity dispute that after Pesamoska

specifically instructed her to meet with the teachers so the issue could be addressed, she still had
not done so five days later, claiming simply that she knew she was supposed to meet with them
“but it didn’t happen.” (ECF No. 55-14, PageID.580.) McGarity also admits that she ceased
communicating with the LRC teachers after they voiced their concerns to Pesamoska. (ECF No.
55-4, PageID.541-42) (“And did I talk to them? No. I did my job and I went home.... I did my
job and went home. Did I talk to them? No. I did not want to talk to them. I was still very
angry.”). Finally, it is undisputed that Pesamoska met with at least seven of McGarity’s colleagues
to investigate the complaints about her lack of communication, and that they all provided similar
negative comments about her communication skills. (ECF No. 55-11; see supra at 5-6.) In short,
BPS’s concerns about McGarity’s communications skills are based on facts borne out by evidence
in the record.
McGarity’s attempts to raise a material question of fact as to the proffered reasons for her
termination fail. First, she attached various text messages to her motion for summary judgment,
which she claims shows she did communicate with her colleagues. (See e.g., ECF No. 37-2.) But
McGarity cannot unilaterally decide what form of communication is appropriate. Indeed, the LRC
teachers do not dispute that McGarity texted, but state that it is part of the job to meet in person
daily to discuss students and accommodations, and no reasonable juror would conclude otherwise
in the school setting in which McGarity worked. (ECF Nos. 55-8,55-18.) Second, while McGarity
acknowledges that she spent her breaks by herself in the vacant classroom or her car, instead of
the LRC room, she asserts there is nothing wrong with this and provides an exhibit showing that
breaks for paraprofessionals are supposed to be “duty free.” (ECF No. 55-4, PageID.536; ECF

12

Case 2:19-cv-11316-BAF-DRG ECF No. 73, PagelD.1150 Filed 11/03/20 Page 13 of 24

No. 64-1, PageID.949.) Even so, this conduct is entirely consistent with BPS’s concerns about
McGarity’s overall ineffective communication with her co-workers, and does not raise a material
question of fact that the stated reason for her termination was pretext for race discrimination.
Moreover, even ignoring McGarity’s “break time” conduct, BPS presented ample evidence of
communication issues that would warrant termination. See e.g., supra at 11-12.
McGarity also relies on a few thank you cards from students and parents, and Pesamoska’s
written recommendation of McGarity for an aide position at the school’s Kids Club. (See e.g.,
ECF No. 37-2, PageID.174-75; No. 60-2, PageID.838, 847.) But this evidence also fails to raise
a material question of fact on the issue of pretext. The fact that some students and their families
appreciated McGarity reflects positively on her, but BPS never said it terminated her because she
had no positive relationships with students or parents. And, although Pesamoska did recommend
McGarity for a Kids Club aide position, noting that she “works well with students,” this was early
in McGarity’s probationary period, and “well before” Weiss and Theys had advised Pesamoska
about their concerns with McGarity’s lack of communication and Pesamoska’s ensuing
investigation. (ECF No. 60-2, PageID.838; No. 62, PageID.903.) Moreover, the Sixth Circuit has
found that the mere fact that the plaintiff had received positive feedback prior to her discharge
does not establish a discriminatory motive:
The central theme of [the plaintiffs] argument is that, because he continued
to receive good performance evaluations and merit pay increases even after
the incidents which [the defendant employer] cited as illustrative of his
inaccuracy and combative attitude, those explanations must be incredible.
This argument is misdirected. The issue is not whether [the plaintiff] was
truly “obnoxious” enough, or “unreliable” enough, to justify firing him.
Nor are we concerned with why [the defendant employer] retained [the
plaintiff] as long as it did. Those are precisely the type of “just cause”
arguments which must not creep into an employment discrimination
lawsuit. [The defendant employer] asserts that these are the reasons [the
plaintiff] was fired and, in the absence of [evidence raising a material
question of fact as to pretext], its explanations must be accepted.
13

Case 2:19-cv-11316-BAF-DRG ECF No. 73, PagelD.1151 Filed 11/03/20 Page 14 of 24

See Manzer, 29 F.3d at 1084-85.
McGarity’s attempts to explain her viewpoint of the communication issue discussed above
are immaterial under “the honest belief rule.” See Miles v. South Central Human Resource Agency,
Inc., 946 F.3d 883, 897 n. 5 (6th Cir. 2020). Under this rule, as long as BPS had an “honest belief’
in the nondiscriminatory reason for terminating McGarity, then McGarity cannot establish that the
reason was pretextual even if it were later determined to be incorrect. Majewski v. Automatic Data
Processing, Inc., 21A F.3d 1106, 1117 (6th Cir. 2001)(citations omitted). An employer has “an
honest belief’ in its reason for discharging an employee where the employer reasonably relied on
the particularized facts that were before it at the time the decision was made. Todd v. RBS Citizens,
N.A., 483 Fed. App'x 76, 83 (6th Cir.2012). The decisional process need not be optimal but only
“reasonably informed and considered.” See Michael v. Caterpillar Fin. Serv. Corp., 495 F.3d 584,
589-99 (6th Cir. 2007); see Wright v. Murray Guard, Inc., 455 F.3d 702, 708 (6th Cir. 2006).
McGarity has failed to raise a material question of fact that Principal Pesamoska reasonably
believed the reasons for terminating McGarity were true due to his own observations and
investigation. The evidence is undisputed that Principal Pesamoska addressed the LRC teachers’
• complaints with McGarity, and that she did not deny the allegations against her, but instead “just
stayed quiet.” (ECF No. 55-4, PageID.542; ECF No. 55-13.) Then, Pesamoska interviewed
numerous other West Maple employees who had first-hand knowledge about McGarity’s work
performance, and they all voiced similar serious concerns about her communication skills. (ECF
No. 55-11.) Finally, McGarity admits that after the meeting and her return from break, she did not
speak with Weiss or Theys at all. See supra at 6. Based on all of those facts, Pesamoska made a
reasonably informed and considered decision to terminate McGarity for non-discriminatory
reasons. Again, this shows that McGarity failed to raise a material question of fact on the issue of

14

Case 2:19-cv-11316-BAF-DRG ECF No. 73, PagelD.1152 Filed 11/03/20 Page 15 of 24

pretext.
Finally, McGarity cannot prove that the proffered reasons did not actually motivate her
discharge. Manzer, 29 F.3d at 1084. To prove pretext under this prong, McGarity must adduce
evidence of discriminatory motive.

Id.

McGarity must prove that the “sheer weight of

circumstantial evidence of discrimination makes it ‘more likely than not’ that the employer’s
explanation is a pretext, or coverup.” Id. McGarity first attempts to prove that her performance
problems did not actually motivate her discharge by attaching text messages and phone bills
showing she contacted the LRC teachers. (ECF No. 60, PageID.815.) She claims that under
Westmoreland v. TWC Administration, 924 F.3d 718, 726-27 (4th Cir. 2019), that this is sufficient
to survive summary judgment. (ECF No. 60, PageID.815.) The Court disagrees.
In Westmoreland, an age discrimination case, the Court held that an employee successfully
rebutted the employer’s reasonable, non-discriminatory reason for discharge with evidence of a
replacement outside of her protected class and a remark that the plaintiff could now take care of
her grandbabies. Westmoreland- a Fourth Circuit case - is not binding on this Court. Moreover,
McGarity’s case is distinguishable from Westmoreland, where the evidence of pretext and
motivation was a remark that referred to the plaintiff’s age. Here, McGarity points only to Weiss’
purported statement, suggesting that McGarity “put in her two weeks’ notice and leave.” (ECF
No. 60, PageID.823.) Unlike the statement in Westmoreland, nothing about Weiss’ alleged
statement suggests it was motivated by race.

And, as discussed above, whether McGarity

occasionally communicated with her colleagues via text message is immaterial to the reason she
was terminated - her failure to communicate in-person regularly about the students’ needs while
at work.
McGarity’s attempt to prove that her performance problems did not actually motivate her

15

Case 2:19-cv-11316-BAF-DRG ECF No. 73, PagelD.1153 Filed 11/03/20 Page 16 of 24

discharge by alleging that nepotism was the real reason for her discharge also fails. She alleges
that the Director of Special Education, Laura Mahler, is Theys’s mother, and that Mahler violated
BPS’s conflict of interest policy when she attended McGarity’s termination meeting. (ECF No.
60, PageID.820; 55-4, PageID.544; 60-2, PageID.869.) However, McGarity has not presented any
evidence that Mahler had any input into the termination decision.3 (ECF No. 55-4, PageID.54243; ECF No. 61, PageID.888.) And, even if McGarity is correct that Mahler’s attendance at the
meeting violated BPS policy, that does nothing to save her claim. As the Sixth Circuit explained
in Williams v. Columbus Metropolitan Housing Authority, 90 Fed. Appx. 870, 876 (6th Cir. 2004),
“an employer's failure to follow its own regulations and procedures, alone, is not sufficient to
support a finding of pretext.” Moreover, Mahler recommended McGarity for the position (ECF
No. 55-5), so it makes little sense to suggest that she would now discriminate against McGarity
based on her race. See Garrett v. SWMed. Clin., 631 Fed.Appx. 351, 357 (6th Cir. 2015)(under
the “same actor inference,” when the same person who hired plaintiff also fired plaintiff, there is
a presumption that an employee's race did not motivate the termination)). In short, McGarity fails
raise a material question of fact that Mahler’s attendance at the termination meeting was in any
way a motivating factor in the decision to terminate her, or that the proffered reasons for her
termination were pretext.
Finally, McGarity failed to raise a material question of fact that BPS’s proffered reasons
for termination were insufficient to warrant her termination. This type of argument is ordinarily
proven with evidence that similarly situated employees were treated more favorably for the same
conduct that resulted in the adverse action against the plaintiff. Manzer, 29 F.3d at 1084. It is

3 As explained above, supra at 7-8, McGarity expressly declined the opportunity to depose Mahler
about these matters.
16

Case 2:19-cv-11316-BAF-DRG ECF No. 73, PagelD.1154 Filed 11/03/20 Page 17 of 24

McGarity’s burden to establish that similarly situated employees were treated differently than she
was. Macy v. Hopkins County Sch. Bd. of Educ., 484 F.3d 357 (6th Cir. 2006). “To satisfy the
similarly-situated requirement, a plaintiff must demonstrate that the comparable employee is
similar ‘in all of the relevant aspects.’” Martin v. Toledo Cardiology Consultants, Inc., 548 F.3d
405, 412 (6th Cir. 2008). To be “similarly situated,” employees generally must “‘have dealt with
the same supervisor, have been subject to the same standards and have engaged in the same
conduct without such differentiating or mitigating circumstances that would distinguish their
conduct or the employer’s treatment of them for it.’” Ercegovich v. Goodyear Tire & Rubber Co.,
154 F.3d 344, 352 (6th Cir. 1998). A plaintiff fails to meet her burden if she offers no “evidence
that other employees, particularly employees not in the protected class, were not fired even though
they engaged in substantially identical conduct to which the employer contends motivated its
discharge of the plaintiff.” Manzer, 29 F.3d at 1084.
McGarity seems to argue that Julie Shimshock is a similarly situated employee. (ECF No.
60, PageID.819.) However, the facts simply do not bear this out. Shimshock started working as
aparaprofessional at West Maple Elementary School in 2007. (ECF No. 63-3, PageID.929.) Thus,
BPS employed her well beyond her probationary period, making her not similarly situated to
McGarity who was terminated during her probationary period. (Id.) The issues involving the
employees are also not similar. McGarity claims that Shimshock received favorable treatment due
to her race when she had an incident involving a student. (ECF No. 60, PageID.819.) But the
incident in question involved an agitated student who became physical, throwing items and
grabbing Shimshock around her legs. (ECF No. 63-3, PageID.934.) Shimshock radioed for
assistance, but did not physically engage with the student. (Id.) BPS put Shimshock on paid leave
while it investigated this incident. (Id.) BPS determined that Shimshock responded appropriately.

17

Case 2:19-cv-11316-BAF-DRG ECF No. 73, PagelD.1155 Filed 11/03/20 Page 18 of 24

(Id.)

In contrast, after complaints were made regarding McGarity’s communication issues,

Principal Pesamoska conducted a thorough investigation which corroborated the complaints and
their seriousness. (ECFNos. 55-11, 55-15.) McGarity has not identified any other employee who
had performance issues similar to McGarity’s, and who was treated more favorably. As such, she
cannot prove pretext under the third prong.
For all of these reasons, BPS is entitled to summary judgment on McGarity’s Title VII race
discrimination claim.
2. BPS is Entitled to Summary Judgment on McGarity's Retaliation Claim
“Title VII prohibits an employer from retaliating against an employee who has either: (1)
‘opposed any practice made an unlawful employment practice by this subchapter,’ or (2) ‘made a
charge, testified, assisted, or participated in any manner in an investigation, proceeding, or hearing
under this subchapter.’” E.E.O.C. v. New Breed Logistics, 783 F.3d 1057, 1066 (6th Cir. 2015)
(quoting 42 U.S.C. § 2000e-3(a)). “These two provisions, respectively, constitute the ‘opposition’
and the ‘participation’ clauses.” Id. To establish a prima facie case of retaliation under either
clause of Title VII's anti-retaliation provision, a plaintiff must demonstrate that: (1) she engaged
in activity protected by Title VII; (2) the defendant knew of the protected activity; (3) thereafter,
the defendant took adverse action against her; and (4) a causal connection existed between the
protected activity and the materially adverse action. Id. (citing Taylor v. Geithner, 703 F.3d 328,
336 (6th Cir.2013)). The same McDonnell Douglas burden-shifting framework discussed above
then applies; if the plaintiff establishes a primafacie case of retaliation, the defendant must proffer
some legitimate, nonretaliatory reasons for its actions, and if it does so, the plaintiff must show
that those reasons were pretext for retaliation. Id. Importantly, the plaintiff must “establish butfor causation to establish the retaliation claim. This standard ‘requires proof that the unlawful

18

Case 2:19-cv-11316-BAF-DRG ECF No. 73, PagelD.1156 Filed 11/03/20 Page 19 of 24

retaliation would not have occurred in the absence of the alleged wrongful action or actions of the
employer.’” Id. (citing Univ. of Tex. Sw. Med. Ctr. v. Nassar, 570 U.S. 338 (2013)).
McGarity seems to assert two theories of unlawful retaliation. First, she argues that BPS
improperly retaliated against her for requesting a union representative at the January 10, 2019
meeting. (ECF No. 37, PageID.161.) Second, McGarity seems to assert that she was retaliated
against for various complaints and comments she made because of the alleged relationship between
Mahler and Theys:
The Plaintiff theorizes (1) Mahler terminated McGarity in retaliation for
participating in a complaint process involving her daughter, (2) Mahler fired
McGarity in retaliation for participating in process that could result in an
EEOC charge because of her own admittance and awareness of
Pesamoska’s biased investigations into the plaintiffs performance and (3)
Mahler terminated McGarity in retaliation because she advised Pesamoska
in matters and wanted to protect her daughter and herself from repercussions
should the matter escalate.
(ECF No. 60, PageID.822.)
McGarity’s arguments fail for a few reasons. First, as noted above, McGarity declined to
depose Mahler, and McGarity’s “theory” about her involvement is not evidence sufficient to create
a material question of fact. Second, even assuming McGarity can satisfy the first three elements
of a retaliation claim, BPS is entitled to summary judgment because she fails to raise a material
question of fact as to the issue of causation. See Morris v. Oldham Co. Fiscal Court, 201 F.3d
784, 792 (6th Cir. 2000). “The element of causation which necessarily involves an inquiry into
the motives of an employer, is highly context-specific.” Dixon v. Gonzales, 481 F.3d 324, 335
(6th Cir. 2007)(citations omitted). And, as noted above, in the Title VII retaliation context, to
prove a causal connection, the plaintiff must establish heightened “but for” causation. New Breed
Logistics, 783 F.3d at 1066. The Supreme Court has described this “but for” standard as a “more
demanding” standard of proof than the “motivating factor” standard. Nassar, 570 U.S. at 362.
19

Case 2:19-cv-11316-BAF-DRG ECF No. 73, PagelD.1157 Filed 11/03/20 Page 20 of 24

When determining the “but for” issue, the relevant question is whether the defendant would have
taken the same adverse action even in the absence of the alleged protected conduct. See Gross v
FBL Fin Servs, 557 US 167, 176, (2009). Temporal proximity alone is not enough to prove
causation. See Cooper v. City of North Olmsted, 795 F.2d 1265, 1272 (6th Cir. 1986). This is
especially true where, as here, the fact of temporal proximity is not particularly compelling because
“the plaintiffs retaliation claim [is] otherwise weak and there [is] substantial evidence supporting
the defendant’s version of the events.” Nguyen v. City of Cleveland, 229 F.3d 559, 567 (6th Cir.
2000). Moreover, the Sixth Circuit has “held that an intervening cause between protected activity
and an adverse employment action dispels any inference of causation.”

Kenney v. Aspen

Technologies, Inc.,__F.3d__, 2020 WL 3638388, *4 (6th Cir. July 6,2020). An intervening event
is a “legitimate reason to take an adverse employment action” and “dispels an inference of
retaliation based on temporal proximity”. Kuhn v. Washtenaw County, 709 F.3d 612,628 (6th Cir.
2013).
McGarity fails to raise a material question of fact as to causation. In December 2018,
before McGarity accepted Pesamoska’s offer to have a union representative at the early January
meeting, it is undisputed that Pesamoska had multiple meetings with McGarity regarding her
ongoing communication issues. (ECF Nos. 55-5; 55-14; 62, PageID.910-11.) During these
meetings, Pesamoska told McGarity that she must communicate with the LRC teachers to continue
as a paraprofessional at the school. (Id.) After returning to school on January 2nd, McGarity
admits that she did not comply with Pesamoska’s directive to communicate with the LRC teachers.
(ECF No. 55-4, PagelD.541-42.) When Pesamoska learned that McGarity ignored his order and
was not communicating with the LRC teachers, he recommended her termination based on that
conduct. (ECF No. 61, PageID.888; ECF No. 62, PageID.910-11.) Thus, McGarity’s refusal to

20

Case 2:19-cv-11316-BAF-DRG ECF No. 73, PagelD.1158 Filed 11/03/20 Page 21 of 24

communicate with the LRC teachers after January 1st is an intervening event that is a legitimate
reason for her termination, and McGarity cannot prove that but for her earlier “request” for a union
representative she would have remained employed. In short, McGarity cannot use her request as
a shield from the consequences of her ongoing refusal to follow her principal’s orders to
communicate with her supervisors. See Nassar, 133 S.Ct. at 2532.
For all of these reasons, BPS is entitled to summary judgment on McGarity’s Title VII
retaliation claim.
3,

BPS is Entitled to Summary Judgment on McGarity’s Hostile Work
Environment Claim

In her complaint, McGarity vaguely alleges that Grace Weiss created a hostile work
environment by recommending to McGarity that she put in her “two weeks” during their
conversation on December 19, 2018. (ECF 1, PageID.13.) BPS argues that this one isolated
comment does not, as a matter of law, create a hostile work environment.

(ECF No. 55,

PageID.506-507.) The Court agrees.
The “standards for judging hostility are sufficiently demanding to ensure that Title VII
does not become a general civility code.” Williams v. Gen. Motors Corp., 187 F.3d 553, 562 (6th
Cir. 1999). Such claims require proof of severe or pervasive, objectively offensive harassment
based on race. Russell v. University of Toledo, 537 F.3d 596, 608 (6th Cir. 2008). The isolated
non-race-based comment alleged by McGarity clearly does not meet that high threshold. See Id.
(non-race-based comments that reflect on the plaintiffs work habits rather than racial animosity
do not create a hostile work environment). In her response to BPS’s summary judgment motion
on this issue, McGarity also makes vague accusations that her schedule “changed” twice. (ECF
No. 60, PageID.823.) However, McGarity fails to explain this accusation in any further detail, let
alone why any such change would rise to the level of creating a hostile work environment under
21

Case 2:19-cv-11316-BAF-DRG ECF No. 73, PagelD.1159 Filed 11/03/20 Page 22 of 24

the stringent standard described above. Wade v. Automation Pers. Servs., Inc., 612 F. App'x 291,
299 (6th Cir. 2015) (Holding that mere shifting of work schedule “does not come close to being
objectively hostile under our standard.”).
Accordingly, BPS is entitled to summary judgment on McGarity’s hostile work
environment claim.
4.

BPS is Entitled to Summary Judgment on McGarity’s FLSA Claim

McGarity claims that she was terminated in violation of the FLSA. The FLSA sets federal
standards for minimum wage and overtime compensation for covered employees. See 29 U.S.C.
§§ 206(a), 207(a). As such, an employer violates the FLSA if it violates the statute’s minimum
wage or overtime compensation provisions. To prevail on a FLSA overtime or minimum wage
claim “a plaintiff must prove, by preponderance of the evidence, that [she] ‘performed work for
which [she] was not properly compensated.”’ Moran v. Al Basil LLC, 788 F.3d 201, 204 (6th Cir.
2015)(quoting Anderson v. Mt. Clemens Pottery Co., 328 U.S. 680, 687 (1946)).
McGarity seems to allege that BPS terminated her because she took her breaks duty free,
meaning she did not communicate with her coworkers during her break.

(ECF No. 64-1,

PageID.949.) However, McGarity does not allege that BPS failed to properly compensate her for
the time that she worked (including while on break) as required by the FLSA. (ECF No. 1.) As
such, McGarity fails to state a cognizable claim under the FLSA, and BPS is entitled to summary
judgment on this claim.
5.

McGarity’s Motion for Summary Judgment Should be Denied

Above, the Court fully analyzed the evidence and arguments proffered by McGarity in this
case and explained why it fails to defeat BPS’s motion for summary judgment. In light of that
conclusion, it goes without saying that McGarity’s motion for summary judgment, on which she

22

Case 2:19-cv-11316-BAF-DRG ECF No. 73, PagelD.1160 Filed 11/03/20 Page 23 of 24

faces a “substantially higher hurdle,” Arnett, 281 F.3d at 561, should be denied.
IL

RECOMMENDATION
For the reasons set forth above, it is RECOMMENDED that McGarity’s motion for

summary judgment (ECF No. 37) be DENIED and BPS’s motion for summary judgment (ECF
No. 55) be GRANTED.

s/David R. Grand__________
DAVID R. GRAND
United States Magistrate Judge

Dated: November 3, 2020
Ann Arbor, Michigan

NOTICE TO THE PARTIES REGARDING OBJECTIONS
Within 14 days after being served with a copy of this Report and Recommendation and
Order, any party may serve and file specific written objections to the proposed findings and
recommendations and the order set forth above. See 28 U.S.C. §636(b)(l); Fed. R. Civ. P.
72(b)(2); E.D. Mich. LR 72.1(d)(1). Failure to timely file objections constitutes a waiver of any
further right of appeal. See Thomas v. Am, 474 U.S. 140, (1985); United States v. Sullivan, 431
F.3d 976, 984 (6th Cir. 2005). Only specific objections to this Report and Recommendation will
be preserved for the Court’s appellate review; raising some objections but not others will not
preserve all objections a party may have. See Smith v. Detroit Fed'n of Teachers Local 231, 829
F.2d 1370,1373 (6th Cir. 1987); see also Frontier Ins. Co. v. Blaty, 454 F.3d 590,596-97 (6th Cir.
2006). Copies of any objections must be served upon the Magistrate Judge. See E.D. Mich. L.R.
72.1(d)(2).
A party may respond to another party’s objections within 14 days after being served with
a copy. See Fed. R. Civ. P. 72(b)(2); 28 U.S.C. §636(b)(l). Any such response should be concise,

23

Case 2:19-cv-11316-BAF-DRG ECF No. 73, PagelD.1161 Filed 11/03/20 Page 24 of 24

and should address specifically, and in the same order raised, each issue presented in the
objections.
CERTIFICATE OF SERVICE
The undersigned certifies that the foregoing document was served upon counsel of record
and any unrepresented parties via the Court’s ECF System to their respective email or First Class
U.S. mail addresses disclosed on the Notice of Electronic Filing on November 3,2020.
s/Eddrev O. Butts
EDDREY O. BUTTS
Case Manager

24

Case2:19-cv-11316-BAF-DRG ECF No. 78, PagelD.1252 Filed 11/19/20 Page lot7

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
SASHA TRIESTE MCGARITY,
Plaintiff,

Civil Action No. 19-CV-11316

HON. BERNARD A. FRIEDMAN

vs.

BIRMINGHAM PUBLIC SCHOOLS,
Defendant.

OPINION AND ORDER ACCEPTING
MAGISTRATE JUDGE’S REPORT AND RECOMMENDATION.
DENYING PLAINTIFF’S MOTION FOR SUMMARY JUDGMENT.
GRANTING DEFENDANT’S MOTION FOR SUMMARY JUDGMENT.
AND DENYING PLAINTIFF’S MOTION FOR LEAVE TO AMEND
This matter is presently before the Court on cross motions for summary judgment
[docket entries 37 and 55] and on plaintiffs motion for leave to amend the complaint [docket
entry 75]. Magistrate Judge David R. Grand has issued a report and recommendation (“R&R”)
in which he recommends that the Court deny plaintiffs summary judgment motion and grant
defendant’s summary judgment motion. Plaintiff has filed objections to the R&R. The Court
has reviewed the parties’ motion papers, the R&R, and plaintiff s objections. For the reasons
stated below, the Court shall reject plaintiffs objections, accept the R&R, deny plaintiffs
motion for summary judgment, grant defendant’s motion for summary judgment, and deny
plaintiffs motion for leave to amend the complaint.
This is an employment discrimination action in which plaintiff alleges that her
employer, defendant Birmingham Public Schools, discriminated against her based on her race,
thereby violating her rights under Title VII of the Civil Rights Act of 1964 and the Fair Labor
Standards Act (“FLSA”), when it discharged her in January 2019 from her position as a

Case 2:19-cv-11316-BAF-DRG ECF No. 78, PagelD.1253 Filed 11/19/20 Page 2 of 7

probationary paraprofessional.

She also claims that defendant retaliated against her for

requesting a union representative at her termination hearing and for making various complaints
and comments. Additionally, plaintiff claims that defendant subjected her to a hostile work
environment. The magistrate judge concluded that summary judgment should be granted for
defendant on plaintiff’s discrimination and retaliation claims because no jury could find that
defendant’s nondiscriminatory explanation for discharging plaintiff was a pretext for race
discrimination. The magistrate judge also recommended that summary judgment be granted for
defendant on plaintiffs hostile work environment claim because plaintiff has presented no
evidence that she was ever subjected to such an environment based on her race.
Plaintiffhas filed objections to the R&R. The Court “must determine de novo any
part of the magistrate judge’s disposition that has been properly objected to.” Fed. R. Civ. P.
72(b)(3). Objections must “(A) specify the part of the order, proposed findings,
recommendations, or report to which aperson objects; and (B) state the basis for the objection.”
E.D. Mich. LR 72.1 (d)(1). The Court need not address objections that simply restate arguments
the objecting party presented before the magistrate judge because such objections “fail to
identify the specific errors in the magistrate judge’s proposed recommendations.” Funderburg
v. Comm ’r of Soc. Sec., No. 15-10068, 2016 WL 1104466, at *1 (E.D. Mich. Mar. 22, 2016)
(citation omitted). Further,
[o]nly those objections that are specific are entitled to de novo
review under the statute. Mira v. Marshall, 806 F.2d 636,637 (6th
Cir. 1986). “The parties have the duty to pinpoint those portions
of the magistrate's report that the district court must specially
consider.” Id. (internal quotation marks and citation omitted). A
general objection, or one that merely restates the arguments
previously presented, does not sufficiently identify alleged errors
on the part of the magistrate judge. See VanDiver v. Martin, 304
2

Case 2:19-cv-11316-BAF-DRG ECF No. 78, PagelD.1254 Filed 11/19/20 Page 3 of 7

F. Supp. 2d 934, 937 (E.D. Mich. 2004). An “objection” that does
nothing more than disagree with a magistrate judge's
determination, “without explaining the source of the error,” is not
considered a valid objection. Howard v. Sec'y of Health and
Human Servs., 932 F.2d 505,509 (6th Cir. 1991). Without specific
objections, “[t]he functions of the district court are effectively
duplicated as both the magistrate and the district court perform
identical tasks. This duplication of time and effort wastes judicial
resources rather than saving them, and runs contrary to the
purposes of the Magistrate's Act.” Id.
Rogers v. Ricks, No. 20-12100,2020 WL 6305072, at *1 (E.D. Mich. Oct. 28, 2020).
In the present case, plaintiff has filed nineteen pages of objections (along with
Exhibits A through P), but these objections and exhibits simply rehash the arguments she
presented previously and do not explain how the magistrate judge erred in presenting the facts
or analyzing the legal issues. Other “objections” plaintiff makes are not objections at all but
simply statements of the facts as she believes them to be. See, e.g., Pl.’s Objection 11: “In
October, Weiss texted McGarity and asked if she wanted to donate money for flowers for Theys
because her brother had passed. McGarity replied, yes. The Plaintiff brought the money into
the LRC room. Theys was absent for a short time.” Further, plaintiffs statement that the
magistrate judge “ma[dej it clear that his decision is based upon the law and only the law,” PI. ’s
Obj. at 1, is hardly a basis for rejecting the R&R.
In short, plaintiffs objections are not sufficiently specific or substantive to
constitute proper objections under Fed. R. Civ. P. 72, and therefore the Court declines to review
them. Nonetheless, as noted above, the Court has independently reviewed the parties’ motion
papers and finds that the magistrate judge’s R&R thoroughly, accurately, and fairly presents all
of the relevant facts and analyzes them, as plaintiff acknowledges, “based upon the law.”
Defendant is entitled to summary judgment because no reasonable jury could find in plaintiff s
3

Case 2:19-cv-11316-BAF-DRG ECF No. 78, PagelD.1255 Filed 11/19/20 Page 4 of 7

favor on any of her claims. Plaintiff was discharged because she refused to interact and
communicate with the teachers she was hired to support and for disregarding the principal’s
specific instructions that she meet with these teachers to resolve this critical issue. There is not
a shred of record evidence to suggest that plaintiffs race or her engagement in any protected
activity played any role whatsoever in defendant’s decision to discharge her. Nor is there a
shred of evidence to suggest that plaintiff was subjected to a hostile work environment or that
her rights under the FLSA were violated. In fact, the Court finds that plaintiff s case is so
lacking in factual or legal support as to be frivolous and sanctionable under Fed. R. Civ. P. 11
and Christiansburg Garment Co. v. EEOC, 434 U.S. 412, 421 (1978) (permitting an award of
attorney fees against a non-prevailing Title VII plaintiff “upon a finding that the plaintiffs
action was frivolous, unreasonable, or without foundation, even though not brought in subjective
bad faith”). However, because the magistrate judge denied defendant’s motion to sanction
plaintiff and defendant has not objected to that order, this issue is moot unless overturned on
appeal.
Plaintiff also seeks leave to amend her complaint. Her motion states in relevant
part:
4. McGarity erroneously used FLSA when it should be NLSA,
National Labor Relations Act for her claims.
5. McGarity failed to add BAP [Birmingham Association of
Paraprofessionals] union as a defendant assuming BPS
[Birmingham Public Schools] and BAP were one in the same.
6. McGarity would like to amend her claims for relief. As justice
so requires, an employer with 300 or more employees if found
liable for discrimination receive the maximum allowable penalty.
7. McGarity has battled with BPS for about 2 years. The courts

4

Case 2:19-cv-11316-BAF-DRG ECF No. 78, PagelD.1256 Filed 11/19/20 Page 5 of 7

goal is to put the plaintiff in a position as if this occurrence never
happened. In light of this information, BPS unwillingness to
settle, McGarity would like to increase her damages as the
amended complaint entails.
8. Amended complaint is attached as an exhibit.
9. This request is not made for the purpose of delay and no
prejudice will result to the Defendants by this Motion.
Pl.’s Mot. for Leave to Am. Compl. at 1-2. The motion is not supported by a brief. The only
mention of BAP in the proposed amended complaint is that at the meeting where plaintiff was
terminated, “Dalton, the union rep did not perform his due diligence in representing McGarity.”
Proposed Am. Compl. ^ 19. For relief, plaintiff requests that the Court “[ejnjoin . .. BAP for
unfairly representing African American Employees in accordance with National Labor
Standards Act.” Id. at 6.
While the Court “should freely give leave [to amend] when justice so requires,”
Fed. R. Civ. P. 15(a)(2), the Court need not give leave where there is “undue delay, bad faith or
dilatory motive on the part of the movant, repeated failure to cure deficiencies by amendments
previously allowed, undue prejudice to the opposing party by virtue of allowance of the
amendment [or] futility of amendment.” Foman v. Davis, 371 U.S. 178, 182 (1962). In the
present case, the Court shall deny leave because of the extreme delay in bringing the motion and
the futility of the proposed amendment. As for delay, plaintiff commenced this action in May
2019. If she had wished to sue her union, she should have done so then, not eighteen months
later after the case has been vigorously litigated and it is on the verge of coming to an end.
Plaintiffs only explanation for the delay, that she “erroneously used FLSA when it should be
NLSA,” makes no sense at all. Plaintiff indicated in her complaint that she sought “to enforce

5

Case 2:19-cv-11316-BAF-DRG ECF No. 78, PagelD.1257 Filed 11/19/20 Page 6 of 7

rights to union representation,” Compl. % 1, but she neglected to name the BAP as a defendant.
Further, plaintiffs proposed claim against the BAP is futile, as plaintiffs only
allegation is that the union representative “did not perform his due diligence in representing”
her at the termination hearing. A union does not violate its duty of fair representation by failing
to “perform... due diligence.” Rather, “[a] breach of the duty of fair representation occurs only
when a union’s conduct toward a member of the collective bargaining unit is arbitrary,
discriminatory, or in bad faith.” Merritt v. Int 7 Ass ’n ofMachinists & Aerospace Workers, 613
F.3d 609, 619 (6th Cir. 2010) (citing Vaca v. Sipes, 386 U.S. 171, 190 (1967)). Plaintiffs
proposed claim against the BAP makes no such allegation and is therefore futile, as it “could not
withstand a motion to dismiss.” Martin v. Assoc. Truck Lines, Inc., 801 F.2d 246, 248 (6th Cir.
1986).
For these reasons, the Court concludes that the magistrate judge has correctly
analyzed the issues in this case and that his recommendation is sound. The Court also concludes
that plaintiff should not be permitted to amend the complaint at this late date and in the manner
she proposes. Accordingly,

IT IS ORDERED thatplaintiff s objections to Magistrate Judge Grand’s R&R are
rejected.

IT IS FURTHER ORDERED that Magistrate Judge Grand’s R&R is hereby
accepted and adopted as the findings and conclusions of the Court.

6

Case 2:19-cv-11316-BAF-DRG ECF No. 78, PagelD.1258 Filed 11/19/20 Page 7 of 7

IT IS FURTHER ORDERED that plaintiffs motion for summary judgment is
denied.

IT IS FURTHER ORDERED that defendant’s motion for summary judgment is
granted.

IT IS FURTHER ORDERED that plaintiffs motion for leave to amend the
complaint is denied.

Dated: November 19, 2020
Detroit, Michigan

s/Bemard A. Friedman
Bernard A. Friedman
Senior United States District Judge

CERTIFICATE OF SERVICE
The undersigned certifies that the foregoing document was served upon counsel of record and any
unrepresented parties via the Court's ECF System to their respective email or First Class U.S. mail addresses
disclosed on the Notice of Electronic Filing on November 19, 2020.
Sasha Trieste McGarity
16900 E. Kennedy Drive
No. 7304
Fraser, MI 48026
saskatoonbookart@gmail.com

s/Johnetta M. Curry-Williams
Case Manager

7

Case 2:19-cv-11316-BAF-DRG ECF No. 26, PagelD.89 Filed 11/14/19 Page 1 of 2

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
SASHA MCGARITY,
Plaintiff,

Civil Action No. 19-CV-l 1316
HON. BERNARD A. FRIEDMAN

vs.
BIRMINGHAM PUBLIC SCHOOLS,
Defendant.

ORDER ACCEPTING MAGISTRATE JUDGED REPORT AND RECOMMENDATION
This matter is presently before the Court on plaintiffs motion for default judgment
[docket entry 21]. Magistrate Judge Mona K. Majzoub has issued a report and recommendation
(“R&R”) in which she recommends that this motion be denied. Plaintiff has filed timely objections
to the R&R.
The magistrate judge correctly notes that plaintiffs “motion for default final
judgment” must be denied because plaintiff did not first obtain a clerk’s default. By the time
plaintiff sought a clerk’s default in July 2019, defendant had already answered the complaint and
therefore the clerk properly denied the requested clerk’s default. Plaintiff is correct that defendant’s
answer was filed one day late (twenty-two days after defendant was served with process), but this
does not change the fact that plaintiff must first obtain a clerk’s entry of default under Fed. R. Civ.
P. 55(a) before seeking a default judgment under Fed. R. Civ.P. 55(b). Nor has plaintiff shown how
she was prejudiced by the answer being filed one day late. Accordingly,

Appendix C

Case 2:19-cv-11316-BAF-DRG ECF No. 26, PagelD.90 Filed 11/14/19 Page 2 of 2

IT IS ORDERED that Magistrate Judge Majzoub’s R&R is hereby accepted and adopted as
the findings and conclusions of the Court.

IT IS FURTHER ORDERED that plaintiff’s motion for default judgment is denied.

Dated: November 14, 2019
Detroit, Michigan

s/Bemard A. Friedman
BERNARD A. FRIEDMAN
SENIOR UNITED STATES DISTRICT JUDGE

2

